<html>
<title> - [H.A.S.C. No. 113-56]UNDERSEA WARFARE CAPABILITIES AND CHALLENGES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 113-56]
 
              UNDERSEA WARFARE CAPABILITIES AND CHALLENGES

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 12, 2013


                                     
[GRAPHIC] [TIFF OMITTED] 

                                     



             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
               David Sienicki, Professional Staff Member
                Douglas Bush, Professional Staff Member
                         Nicholas Rodman, Clerk



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS

                                  2013

                                                                   Page

Hearing:

Thursday, September 12, 2013, Undersea Warfare Capabilities and 
  Challenges.....................................................     1

Appendix:

Thursday, September 12, 2013.....................................    29
                              ----------                              

                      THURSDAY, SEPTEMBER 12, 2013
              UNDERSEA WARFARE CAPABILITIES AND CHALLENGES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
McIntyre, Hon. Mike, a Representative from North Carolina, 
  Ranking Member, Subcommittee on Seapower and Projection Forces.     3

                               WITNESSES

Breckenridge, RADM Richard P., USN, Director, Undersea Warfare 
  Division (N97), Department of Defense..........................     4
Johnson, RADM David C., USN, Program Executive Officer for 
  Submarines, Department of Defense..............................     6

                                APPENDIX

Prepared Statements:

    Breckenridge, RADM Richard P., joint with RADM David C. 
      Johnson....................................................    37
    Forbes, Hon. J. Randy........................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    51
    Mr. Langevin.................................................    54
              UNDERSEA WARFARE CAPABILITIES AND CHALLENGES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                      Washington, DC, Thursday, September 12, 2013.
    The subcommittee met, pursuant to call, at 9:03 a.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES.

    Mr. Forbes. I want to welcome our members and our 
distinguished panel of experts to today's hearing that will 
focus on our undersea warfare capabilities and challenges.
    Before we begin our discussion today on undersea warfare, I 
wanted to quickly discuss sequestration and the alternatives 
that are facing the Navy. It is apparent to me that the largest 
threat to the United States Navy is of our own making. Despite 
repeated attempts by the House of Representatives to rein in 
our Nation's spending and properly resource the Department of 
Defense, the administration has instead offered an alternative 
plan that would raise our Nation's taxes, creating a logjam 
that ensured sequestration continues to decimate our Nation's 
defense.
    When budget cuts were compared with the Nation's risk 
associated with our Syria interest, even Secretary Hagel agreed 
that dismantling of our military by budget cuts constitutes the 
greatest risk.
    If this administration remains supportive of the continued 
deterioration of the military because of sequestration, I look 
forward to the day when a new leadership in our country is 
established to overcome this shortsighted agenda. We need to 
ensure that strategy drives budget decisions, we need to 
provide a voice to our combatant commanders, and we need to 
ensure that every time we put our soldiers and sailors in 
harm's way, we provide them with every tool and every resource 
to ensure that we retain a superior advantage over any 
competing interest.
    If sequestration is allowed to remain during the remaining 
tenure of this administration, I would urge the Department to 
adopt a strategy that retains our current force structure in a 
reduced operational status to allow the next administration the 
opportunity to reverse our military's decline.
    A decision that reduces our Navy by three aircraft carriers 
will take 20 years to recover. This type of irreversible action 
by the administration will irreparably harm our Nation. A hold-
and-wait strategy is superior to any strategy that would reduce 
our force structure, as is being considered by the 
administration.
    As to this hearing, I continue to believe that the undersea 
warfare capabilities provided by our United States Navy provide 
a preeminent role in the--our control of the global commons. 
These capabilities provide the United States with a key 
asymmetric advantage over any potential aggressor. Even in a 
time of declining resources, it is crucial that our Nation 
continue to retain our strategic advantage in undersea warfare.
    At the heart of our current fleet is the Los Angeles-class 
attack submarine. To augment the Los Angeles class, this 
committee has been successful in the authorization of two 
Virginia-class submarines per year, and we authorized another 
two boats in the fiscal year 2014 NDAA. However, with the 
accelerating retirement of the Los Angeles-class submarine, our 
Nation will drop below the 48-boat goal starting in 2025.
    I believe that our attack submarines are an essential 
element to any of our Nation's high-end war plans and I remain 
committed to continuing the annual procurement of two Virginia-
class submarines to retain our asymmetrical advantage.
    Our submarines force also provides a substantial strike 
capability with the land-attack Tomahawk cruise missile. Our 
Navy has four Ohio-class guided missile submarines that can 
each carry 154 Tomahawk cruise missiles. Unfortunately, these 
four boats are scheduled to be retired.
    The Navy has proposed to replace this reduced strike 
capacity with the Virginia Payload Module [VPM]. I believe that 
the Virginia Payload Module could provide this additional 
capability to the fleet, and I will closely monitor the 
affordability of the Virginia Payload Module to ensure that the 
benefits outweigh the associated costs.
    Finally, the Ohio-class replacement program is expected to 
provide almost 70 percent of our Nation's entire strategic 
arsenal. Our national security rests on our ability to deliver 
this boat on time and within budget. Unfortunately, the cost of 
these 12 boats will each average $6 billion and may crowd out 
other shipbuilding interests starting in the next 5 years. I 
believe it is imperative that the Department of Defense 
allocate the correct funding towards these strategic assets and 
ensure that our United States Navy does not disproportionately 
bear the burden.
    The fair share division of our Nation's defense resources 
at the Pentagon needs to come to an end to ensure that our 
naval forces are properly resourced for our future challenges.
    Today we are truly honored to have as our witnesses the 
director of the Undersea Warfare Division, Rear Admiral Richard 
Breckenridge, and the program executive officer for submarines, 
Rear Admiral David Johnson.
    Gentlemen, we want to thank both of you for your service. 
You are the best our country has to give. We thank you both for 
being in the role that you are in, and we are looking forward 
to hearing your testimony today.
    I now want to recognize my friend, the ranking member from 
North Carolina, Mr. McIntyre, for any remarks that he might 
have.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 33.]

 STATEMENT OF HON. MIKE MCINTYRE, A REPRESENTATIVE FROM NORTH 
    CAROLINA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. McIntyre. Thank you. Thank you, Mr. Chairman.
    As we look at the Navy's current and planned undersea 
warfare programs, we couldn't have two better witnesses. So 
thank you to Admiral Johnson and Admiral Breckenridge for your 
service and for being here today.
    And thank you, Mr. Chairman, for holding this hearing, 
because we do know the Navy's undersea capabilities are 
critical, critical issues facing the DOD [Department of 
Defense] and the Congress as a whole. I particularly want to 
thank Admiral Breckenridge, whom I have known since I first 
came to Congress, for his leadership and character, for his 
integrity and for your service. And thank you for being a 
continuing example of that from the time I knew you when you 
were studying for your first exam to be able to do nuclear 
engineering and to go on to submarines. And to have risen today 
to the responsibility and rank you have; you have been 
steadfast in that, and thank you for that great witness of 
character.
    As we look ahead to examining the Navy's plans in this 
area, there is a lot of talk about China, about other countries 
having asymmetric advantages over the U.S., but we know in 
terms of submarines, the reverse is true, and you gentlemen 
know that better than anybody, which is, of course, why you are 
here today.
    We know that our submarines are clearly at the forefront 
and clearly have the most mobility to do what needs to be done 
quickly, accurately and responsibly. We know that that means we 
can't take that advantage for granted, and it means that we 
can't simply stand still, or I guess the better parallel is say 
we shouldn't just simply stay anchored, we must get underway, 
and we must stay underway with the advancements in our 
submarine fleet and our underwater warfare capabilities.
    Another reason, of course, we want to talk with you 
gentlemen is we are concerned about the cost of the current 
submarine programs and how that is going to impact what we do 
now, but obviously what we do in the future. In the fiscal year 
2013 budget alone, there is more than $5 billion in 
shipbuilding procurement accounts for the Virginia-class attack 
submarine program. That is supposed to continue for many years. 
There is also about $750 million in research and development 
for the Ohio-class replacement submarines, which I know we have 
had some conversations about, even though we are years away 
from actually starting construction. In both cases, in plain 
terms, that is a lot of money, but as things stand today, it 
looks like the Nation gets the most bang for its buck out of 
these investments.
    With falling budgets for sequestration, we are concerned 
about how the Navy will be able to keep these programs on 
track. It is not only a personal interest, a professional 
interest for you, I know as Navy officers, but it is an 
interest that I know you share in our national defense, in a 
concern on behalf of our Nation.
    Finally, I want to mention the future of unmanned 
underwater vehicles. The progress in this area is raising some 
important questions. Will the Navy be able to expand its global 
undersea presence without the expense of building more and more 
large, very expensive manned submarines, or alternatively, will 
the Navy in the future do more to have a balance of some type, 
and if so, in what proportion of both manned and unmanned 
submarines working together to make our overall submarine fleet 
more effective.
    These are the type of questions we know that--we hear a lot 
of about unmanned aerial vehicles these days and that has 
captured the public's imagination, but also have been the 
reality in our military. This is a new area, though, for many 
people, and as our citizens start asking questions, we would 
like to hear your answers as we look ahead to those unmanned 
submarines and other ways of having unmanned underwater 
vehicles and activities.
    We look forward to your testimony. Thank you for your 
service, and indeed we pray God's blessings upon you and your 
families, because we know they make great sacrifices in the 
lengthy times that you have been away and will continue to be 
away as you serve our great Nation.
    Thank you, Mr. Chairman.
    Mr. Forbes. Gentlemen, we thank you both. And as you know, 
as you look at this subcommittee, we are building a record so 
that we can use it for making the decisions that we need. It is 
probably one of the most bipartisan subcommittees that you will 
find in Congress. Mike is one of my closest friends in 
Congress. And Mr. Courtney is representing the northeast for us 
up here today. Mike and I are carrying the southern portion. 
And we have got Mr. Cook bringing up our western flank over 
there, so we are well represented in here.
    But, Admiral, we are going to turn it over to the two of 
you. And I think, Admiral Breckenridge, are you going to go 
first?
    Admiral Breckenridge. Yes, sir.
    Mr. Forbes. Then we will turn it over to you. Thank you for 
being here.

 STATEMENT OF RADM RICHARD P. BRECKENRIDGE, DIRECTOR, UNDERSEA 
         WARFARE DIVISION (N97), DEPARTMENT OF DEFENSE

    Admiral Breckenridge. Well, Mr. Chairman, distinguished 
members, Rear Admiral Dave Johnson and I thank you for the 
opportunity to testify before the Subcommittee on Seapower, as 
we represent the men and women of your Navy's undersea forces. 
And in both your opening statements, again, the special 
relationship the Navy has enjoyed with Congress since the very 
beginning of our country is an underpinning of our greatness as 
a Nation.
    With the permission of the subcommittee, I propose to 
provide a brief statement and a separate written statement for 
the record.
    By any objective measure, the United States has the finest 
undersea force in the world. We enjoy a distinct military 
advantage in the undersea domain unlike any other. When you 
consider land, the surface of the sea, air, even space and 
cyber, these domains are becoming more and more heavily 
contested between us and our adversaries, but in the undersea 
domain, we have a unique military advantage, and that advantage 
has been the bedrock of our greatness as a Nation, a crown 
jewel, if you will, of our global strength and security. 
Strength, I might add, that is not used to add to our own 
national glory, but is instead given sacrificially as we stand 
by others who are severely oppressed, as they pursue the ideals 
of democracy and freedom.
    The outstanding reputation enjoyed by our submarine force 
is the result of sustained excellence by our shipbuilders, our 
maintainers, our shore staffs, our planners, and most of all by 
the men and women who operate our submarines day in and day 
out. This is demanding, highly technical work that requires the 
best people our Nation can produce, and we are very fortunate 
as a country to draw the members of this great team from all 
over the Nation.
    Our undersea forces have a unique role within the Navy, 
just as the Navy has a unique role within the joint force. 
Undersea forces leverage the concealment of the undersea to 
provide what no other part of the joint force can deliver, and 
that is persistent, undetected, assured access far forward and 
the ability to deliver unique military advantages. By 
leveraging stealthy concealment, our undersea forces can deploy 
forward without being provocative, penetrate an adversary's 
defensive perimeter, and conduct undetected operations. These 
undetected operations might be precautionary ship movements, 
intelligence collection and surveillance missions, or special 
forces operations.
    Should it be necessary, our concealed undersea forces can 
exploit the element of surprise and attack at a time and place 
of our choosing. These attacks could include efforts 
specifically focused on helping ensure access into a denied 
area by our follow-on general purpose forces. Feedback from our 
operational commanders indicates that the demand for this 
capability is strong throughout the globe.
    In addition, looking into the future, the threat to our 
ships and aircraft from cruise missiles, anti-ship ballistic 
missiles and integrated air defense systems is growing. This 
will create more military demand for undersea forces.
    Against this backdrop of increasing undersea force value 
and continued strong demand, we must consider the trends in 
undersea force structure. The Navy has worked hard to stabilize 
overall naval forces near or slightly above the current level; 
however, within this stabilized Navy, there is a submarine 
force that will decline by more than 25 percent over the next 
15 years. This decline is not the result of some recent 
decision, as you mentioned. It is the gradual consequence of a 
long list of choices made over many years.
    The total submarine force will drop from 73 submarines to 
52 ships, a cut of about 30 percent. The vertical strike 
payload volume of the undersea force, as our SSGNs [guided 
missile submarines] retire and we reach the bottom of this 
trough area with our SSNs [attack submarines], will drop by 
over 60 percent. The forward presence of our submarines around 
the globe will decline by over 40 percent. This is the program 
of record. This is with the two per year Virginia construction 
rate, of which we received great support from Congress.
    So facing a long-term trend of increasing undersea 
importance and decreasing undersea forces capacity, the Navy 
has developed an integrated approach to provide as much 
undersea capability as possible, yet within realistic 
constraints. This integrated approach does not solve all of the 
shortfalls faced by the Navy, but it makes significant progress 
with limited resources. I would like to discuss the top four 
priorities of this integrated undersea future strategy.
    First and foremost, it is mandatory that we sustain our 
survivable sea-based nuclear deterrent with about the same 
level of at-sea presence as today. The Ohio class represents 
the best lessons learned from the SSBNs [ballistic missile 
submarines] that preceded it, and the Ohio replacement will 
likewise benefit from the Ohio class. Although we have delayed 
this program for over 20 years, it is now time to make the 
necessary investments to support procurement of the first Ohio 
replacement in 2021. There is no allowance for any further 
delay.
    Second, to prevent the attack submarine reduction from 
getting any worse than the 29 percent currently programmed, it 
is essential that we protect the Virginia-class SSN procurement 
plan and hold the line at two SSNs per year.
    Number three, to cost-effectively compensate for the 
retirement of the four SSGNs and the reduction in our SSN force 
below the required minimum level of 48 ships, we need to invest 
in the Virginia Payload Module. In addition to partially 
compensating for the lost strike volume, the Virginia Payload 
Module will distribute this volume over more hauls, providing 
greater security and military utility. This module will provide 
valuable payload flexibility in the future that will otherwise 
be unobtainable.
    And lastly, it is essential that we restart torpedo 
production to fill empty torpedo stows, create the required 
reserves and reestablish a capable producer of these highly 
specialized weapons.
    Taken together, this integrated program will provide us 
with the platforms, the payload volume and the capable payloads 
to address emerging future needs.
    The United States is fortunate to have the best undersea 
force in the world. At the same time, we have the greater 
burden of responsibility of any Nation in the world, with 
scores of countries looking to us for nuclear security and 
defense in a world that is increasingly uncertain and 
combative. Our undersea forces are up to the task today and 
will continue to be up to the task in the future provided they 
are supported with the right resources. Thank you, sir.
    [The joint prepared statement of Admiral Breckenridge and 
Admiral Johnson can be found in the Appendix on page 37.]
    Mr. Forbes. Thank you, Admiral Breckenridge.
    Admiral Johnson.

 STATEMENT OF RADM DAVID C. JOHNSON, PROGRAM EXECUTIVE OFFICER 
             FOR SUBMARINES, DEPARTMENT OF DEFENSE

    Admiral Johnson. Thank you, Mr. Chairman, and good morning. 
I would like to thank the Seapower Subcommittee for inviting me 
here today to talk to you about the Navy's undersea warfare 
programs. My role as program executive officer for submarines 
is to provide the Navy with the platforms, the weapons, and the 
sensors required to ensure the United States maintains its 
unquestioned dominance in the undersea domain, done so both 
affordably and on time.
    This past Saturday, we commissioned the tenth Virginia-
class submarine, the USS Minnesota, SSN 783, which delivered 11 
months early to her contract delivery date and closed out the 
second, or Block II, contract.
    Of the 10 Virginias now in the fleet, we have delivered 7 
early, including all of the 6 Block II submarines.
    When looked at in terms of relevance to the warfighter, 
these submarines, from Virginia to Minnesota, gave the fleet 
over 4 years of additional Virginia-class submarine use because 
of the early delivery, and the fleet has used these ships, 
deploying them to frontline missions at on-station rates that 
meet or exceed the Los Angeles-class submarines they are 
replacing. That kind of performance is a testament to the 
strong Navy industry team that is one of the strongest in all 
of the Department of Defense.
    Not being satisfied with our past successes, we continue to 
reduce delivery spans, and deliver ever more capable ships. Two 
days ago, the 11th Virginia-class ship, the future USS North 
Dakota, SSN 784, rolled out of the construction facility at 
General Dynamics Electric Boat in Groton, Connecticut, and into 
dry dock in preparation for float-off this Sunday. North Dakota 
is the first of the Block III ships, the ships we modified for 
cost reduction and designed and built with large payload tubes 
in the bow.
    North Dakota is tracking to a January of 2014 delivery, and 
if that holds, she will be 7 months early and break the 60-
month barrier on the lead ship of a new contract. That is truly 
phenomenal performance.
    Now, over the course of the Virginia-class program, each 
ship delivered more complete and more ready for tasking. One 
measure I use is how each ship is graded by the Navy's 
independent assessor, that is the Board of Inspection and 
Survey, or INSURV for short. The Huntington Ingalls Industry 
Newport News delivered ship, Minnesota, received the highest 
score yet from INSURV and continued a trend also seen on her 
predecessor, the Electric Boat delivered ship, USS Mississippi.
    Beyond new construction performance, the program is focused 
on maximizing the operational availability. We executed a 
number of modifications to the design in the Block IV 
Virginias, the 10 ships we are in negotiations with General 
Dynamics Electric Boat and Huntington Ingalls Industry Newport 
News today. That will add one deployment to each boat and 
reduce to three the number of major shipyard availabilities 
over the ship's 33-year life.
    We intend to continue our collective work to lower cost, 
both construction and in service, and deliver these capable 
Virginia-class submarines affordably.
    As Admiral Breckenridge mentioned, we have the initial 
research and development funds to design a payload module to 
accommodate up to 28 Tomahawk cruise missiles and future 
payloads. The Virginia Payload Module will utilize the 
modularity and the flexibility inherent in the Virginia-class 
base design and reconstitute the SSGN's payload volume in a 
cost-effective manner. The Virginia-class program, with its 
industrial partners, has proven its ability to incorporate new 
design concepts without disrupting a successful production 
program. I am confident that we will be in a position to 
execute the Virginia Payload Module affordably in the fiscal 
year 2019 Block V contract.
    The experience and knowledge gained from the successful 
Ohio-class ballistic missile and Virginia-class fast attack 
submarines are being used to design the Ohio replacement ships. 
Since the program's initial acquisition milestone, we have 
focused on delivering a ship with the right capability at the 
lowest possible cost. The program is a model for Secretary 
Kendall's better buying power approach to defense acquisition, 
incorporating from the start key tenets, such as affordability 
targets and innovative contracting.
    The R&D [research and development] contract with Electric 
Boat contains discrete incentives for reaching significant, 
specific non-recurring engineering construction and operating 
support costs. This is the first time in a shipbuilding 
research and development contract we have tied substantive 
incentive fees to cost reduction across the entire life cycle. 
This is but one example of how the Ohio replacement program is 
reducing its costs.
    And finally I would like to mention our torpedo work. It 
has been 17 years since the last Mark 48 heavyweight torpedo 
was built. Restarting that production line is, as Admiral 
Breckenridge said, a top submarine force priority. We have 
demonstrated our ability to reduce costs and improve capability 
in this world's best torpedo, using hardware upgrades with 
software improvements to the front end electronic kits. We are 
developing our acquisition strategy to leverage our current 
industrial base and develop the industrial base elements to 
restart the build of the entire weapon using the proven Mark 48 
advanced capability heavyweight torpedo design. The restart 
effort is critical to replenishing our torpedo inventory, and 
like the Navy's other undersea programs, will be done 
affordably.
    Thank you for your time, and I look forward to answering 
your questions.
    [The joint prepared statement of Admiral Johnson and 
Admiral Breckenridge can be found in the Appendix on page 37.]
    Mr. Forbes. Thank you, Admiral Johnson.
    And, Admiral Breckenridge, you had mentioned a couple of 
alarming statistics in terms of our subs reducing from 73 to 
52. And can you give us that timeframe again.
    Admiral Breckenridge. Yes, sir, Mr. Chairman. That 
timeframe is between now and 2030.
    Mr. Forbes. And that would be exclusive of sequestration. 
Isn't that correct?
    Admiral Breckenridge. Yes, sir, that is correct.
    Mr. Forbes. So if you add sequestration onto that, those 
numbers become even more staggering.
    Admiral Breckenridge. Exacerbated further, yes, sir.
    Mr. Forbes. The other thing that I would love for you to 
address, if you would, is as you see the reductions that we are 
recognizing with reducing our subs to 73 to 52 by 2030, our 
presence in subs dropping 40 percent, I think your statistics, 
can you give us a little snapshot of what you see happening 
with some of our peer competitors, and specifically with Russia 
and China, in terms of what they might be doing to compete with 
some of our capabilities?
    Admiral Breckenridge. Yes, sir. The first thing I would 
like to emphasize is the Chief of Naval Operations understands 
the undersea asymmetric advantage very well, and one of his top 
priorities is making sure that we never forfeit this advantage 
that we have in the undersea domain. So even in the face of the 
budgetary pressures of things like sequestration, the Navy is 
committed to providing as much stable funding as we can to 
continue the success story that Admiral Johnson mentioned with 
our shipbuilding industry partners to keep, you know, rolling 
with the Virginia class and Ohio replacement. So we are going 
to do our best within naval service to hold the line and make 
sure that we don't----
    Mr. Forbes. And, Admiral, I don't think any one of us on 
the committee question you doing your best. We just want to 
make sure we are doing our best.
    Admiral Breckenridge. Yes, sir.
    Mr. Forbes. And I am afraid we are not.
    Admiral Breckenridge. Yes, sir.
    Mr. Forbes. But let us know, what do you see with our peer 
competitors?
    Admiral Breckenridge. Yes, sir. And that is a great 
question. And Congressman McIntyre alluded to it in his 
remarks, is our adversaries are not standing still, and so even 
though we have an advantage and we have a lead, we can't sit on 
our lead. So we have to continue to move, or we do have the 
potential within 20 years of losing this crown jewel, this 
advantage that we have in the undersea domain.
    So if I could, I would like to address three countries to 
just talk about how other nations use the undersea domain, and 
the first one I would like to address is Iran. So if you look 
at Iran, they, like many other countries, use the undersea 
domain from a purely maritime, sea denial, local region type of 
influence, much like we did in World War II in the Pacific. We 
used it as an asymmetric advantage, but it was for a maritime 
purpose, to hold that risk, predominantly in surface warships. 
So Iran has a submarine force. It is a disruptive force, a 
challenging force, and one that we deal with with regard to our 
ability to project stabilizing influence around the globe, 
but--so there is a maritime geographic use of undersea domain.
    I would like to contrast that with Russia. So Russia and 
the United States use the undersea domain in a much, much 
larger level. It is a global strategic, you know, lever of 
power. It is more than just a region; it is the ability to 
control the seas, it is the ability to do land attack from 
covert positions. It has a much larger utility than just a 
maritime sea control, sea denial perspective alone. And the 
Russians have always maintained a very capable submarine force.
    I mentioned that we have an advantage. You know, they are a 
close second with regard to their capability and with regard to 
their shipbuilding industry and the capabilities they are 
putting into their new classes of submarines.
    The Russians today have a two-line production in their 
major submarine shipbuilding. They are recapitalizing their 
SSBN force. As their SSBN force is retiring, they have the new 
Borei class. The lead ship is the Dolgorukiy. The first three 
ships are seaworthy in end testing, and they intend to 
recapitalize with at least a class of eight. There has been 
talk of a higher number of SSBNs within their force, but that 
machine is running. Those--very good quality ballistic missile 
submarines are being produced in Russia.
    Their second line is an SSGN, and so I think they have 
watched us closely with our SSGNs. They see the value of large 
payload volume, the ability to take a large amount of strike 
capability to the undersea, and so they are building the 
Severodvinsk SSGN class. It has not four large-diameter tubes 
like we envision within the midsection of the Virginia Payload 
Module, but their midsection is an eight-pack. It is two 
abreast by four. So they see the importance of the concealment 
of the undersea to bring potency with that. They can be 
threatening at a strategic level. And, again, we are mindful of 
that and we are prepared to be able to counter that.
    In the middle sits China. And China is sort of a hybrid 
between the Iranian example I gave you and the Russian example 
I gave you. So China right now is predominantly a maritime, 
regional undersea force, certainly a larger region, with more 
of our allies and partners that are sort of within their 
bubble, but they predominantly use their undersea forces to 
threaten the presence of our surface ships, to be able to 
shoulder off on the positive stabilizing influence of our naval 
forces in an anti-surface warfare dimension. But China is 
growing towards more of a global strategic undersea force. They 
have the Jin SSBN class, their own ballistic missile submarine 
class, and a JL2 missile that they are developing. That will 
put them into the stage of using the undersea for more than 
just maritime regional control. And they also are in 
development of a nuclear SSGN, a large vertical launch capacity 
submarine.
    So there are three pictures for you, sir, of the advances 
that our potential adversaries are making and that we have to 
be mindful of to make sure that we as a Nation preserve this 
unique advantage that we have in the undersea domain.
    Mr. Forbes. Do you see the Chinese numbers increasing 
dramatically?
    Admiral Breckenridge. Yes, sir. That is a great question. I 
failed to mention that, is the challenge that I see with China 
is more of a capacity issue than necessarily a capability issue 
in the near term. I think the capability, the quality of their 
submarines will improve as we march forward a couple of 
decades, but right now there is a capacity challenge that is 
unique to what the Chinese navy has.
    Mr. Forbes. Help us with the Virginia Payload Module. I 
know that Admiral Johnson was at the nursery when the Virginia 
class was born and has lived with it most of your career that 
you have got, and you have been a part of that, too, Admiral. 
Can you give us for the subcommittee and for our record exactly 
what the Virginia Payload Module is, what it's designed to do? 
And specifically there has been a little debate about the 
timing of the requirements and where we are on that. And if you 
could delineate that for us.
    Admiral Breckenridge. Yes, sir. Thank you very much. So 
let's pick for example Operation Odyssey Dawn against Libya. 
When our country decided to make an attack to neutralize the 
defense shield around Libya, we did that predominantly with 
Tomahawk cruise missile strike, the bulk of which came from 
undersea forces. We had three submarines that were involved in 
that operation, one SSGN, USS Florida, and two fast attack 
straight stick Virginia-class submarines.
    So let's hypothetically say that you have a target 
requirement where you need to strike 120 targets, which is a 
reasonable, modest level for this type of operation. One SSGN 
carries 105 Tomahawk cruise missiles, so it alone carries the 
bulk of that service requirement. You add another 12-shooting 
Los Angeles-class submarine, you are up to 117. Still doesn't 
make the whole 120, but pretty close just for those two 
submarines.
    So as the SSGNs go away, that is going to have a very 
significant impact for our ability to quickly mobilize a strike 
force, an arsenal ship of that capacity.
    You know, to put it in perspective, without an SSGN and 
without the Virginia Payload Module, we will require 10 attack 
submarines to be able to service 120 targets. And I am here to 
tell you that it is highly unexecutable for us to mobilize and 
surge 10 attack submarines into a domain with the agility that 
we were able to muster forces for Operation Odyssey Dawn. So 
that is problematic for us.
    What the Virginia Payload Module does is it puts four 
large-diameter tubes in the center of the Virginia class that 
can carry seven Tomahawk cruise missiles each. So in addition 
to the 2 large-diameter tubes forward that Admiral Johnson 
mentioned with Block III that carry 6 Tomahawks each, we go 
from a 12-shooter SSN to a 40-shooter Tomahawk strike SSN.
    So 3 Virginia class with the VPM could service 120 target 
package. So just from a capacity perspective, VPM is a very 
cost-effective way to recapitalize it.
    You know, as you well know, we don't have the ability as a 
Nation to recapitalize our SSBNs, maintain two per year 
Virginia, and develop a new SSGN replacement class. So this 
integrated solution is a way to distribute that firepower over 
a larger force in a very cost effective way. At less than 20 
percent the cost of a Virginia, I can more than triple its 
payload volume.
    But I don't want to restrict this discussion to just land-
attack strike, although, again, that is a very asymmetric, 
unique advantage for our country, but there are many other 
things that we can do with a large capacity, large open ocean 
interface. And Congressman McIntyre mentioned UUVs [unmanned 
underwater vehicles] and supplementing our thin manned 
submarine force with surrogates that are unmanned. And I will 
have the ability to get those UUVs into theater in those 
vertical payload tubes and deploy them and have a network or 
constellation of UUVs to supplement our manned platforms.
    So this payload volume is strategically important for us 
and I think is a low risk, cost-effective improvement to the 
Virginia class.
    Mr. Forbes. And, Admiral, just one more thing and then one 
question, but, Mr. Johnson, I am hoping Mr. McIntyre will ask 
some more about the U class [unmanned underwater vehicles], but 
tell us about the requirements and where we are on those.
    Admiral Breckenridge. Yes, sir. So when the Nation made the 
decision to go from an 18-SSBN to a 14-SSBN force, we had the 
first four Ohios coming into the window to be refueled, so we 
had this decision as a country, do we just decommission them at 
the halfway point of their life or do we convert them to be 
able to do more--something different, more from the undersea 
for the country. And with great support from Congress and great 
wisdom, the country went ahead and converted those four SSBNs 
to this new SSGN platform.
    That was a tremendous military benefit for us. There wasn't 
a specific written requirement for that at that time, but we 
have come to grow to depend heavily on that requirement. So in 
both the Central Command and the Pacific Command, a good 
portion of the Tomahawk strike requirement required day to day 
in theater of those combatant commanders is delivered by our 
SSGN force, so it has become a requirement for our military 
that is in high demand by the COCOMs [combatant commands].
    What we as a Navy have done to codify this requirement is 
we have developed the Capabilities Development Document [CDD]; 
it is a joint staff process to formalize military requirements. 
That has been approved by the CNO [Chief of Naval Operations], 
has undergone initial joint staff review, and is on its path to 
JROC [Joint Requirements Oversight Council] approval later this 
year.
    So on our side, we felt it important to show Congress that 
we have a certified official military requirement for this 
payload volume, and the CDD that is in process of final 
approval will be that pedigree of why this is as important to 
this country. So I expect to have that formal requirement by 
the end of this calendar year.
    Mr. Forbes. Good.
    And, Admiral Johnson, tell us what we are doing so that we 
can afford this very important module. What do you see us doing 
to make sure that we are maintaining the affordability?
    Admiral Johnson. Yes, sir. Great question, Mr. Chairman. So 
the first, as Admiral Breckenridge noted, we are working on the 
requirements, getting those right up front. As you said, I was 
in the early stage of the Virginia design. I watched us work 
hard with the operators and the acquisition force to get the 
requirements right back in the early 1990s, and we have 
essentially not changed our operational requirements document 
for Virginia in 20 years. And I think that is a first order 
effector on why that program has executed in such a cost-
effective manner.
    For Virginia Payload Module, we are doing the same thing. 
We are working hard to get the requirement set, and as Admiral 
Breckenridge noted, we are about done with that process through 
the Joint Requirements Oversight Council.
    Second is to execute a carefully planned, designed program 
where we would achieve an 80 percent design completed 
construction start so that we can build the Virginia Payload 
Modules cost-effectively, and is really one reason why we can't 
continue to sustain cuts to the Virginia Payload Module 
research and development funding, because we need to be going 
on that program by 2014, early 2014 so I can build and install 
that ship and the 19 ships.
    The third is, is to make sure that we keep the technical 
risk to as low as possible. The payload tubes that will be in 
the Virginia Payload Module, two of them are about to be 
floated off on Sunday. Essentially they are the same as what is 
in the bow of the North Dakota today. That lowers our technical 
risk by basically integrating instead of having to develop 
something new.
    And fourth, keep affordability on equal footing with our 
technical requirements. Go forward through our design and do 
these cost capability trades, keep pushing on it so that we do 
effectively insert a Virginia Payload Module. That thinking has 
already driven almost 40 percent out of the cost of our initial 
estimate for the Virginia Payload Module. I anticipate that 
will continue as we go through the design.
    Mr. Forbes. Congressman McIntyre.
    Mr. McIntyre. Thank you. Thank you, Mr. Chairman. Thank you 
gentlemen, again, for your insight.
    Admiral Breckenridge, at an estimated $6 billion apiece, 
the 12 Ohio-class replacement submarines, we realize, won't 
leave much room in the budget for other critical undersea 
priorities. If hard choices have to be made, can you help us 
understand will the Ohio-class replacements still be such a 
clear priority one that the Navy would prioritize them over 
having a full complement of attack subs?
    Admiral Breckenridge. Yes, sir. Thank you. Our ballistic 
missile submarines are the bedrock underlying our national 
nuclear deterrent. Americans are asked to invest in replacing 
this force only once every other generation. The last time 
Congress started procurement of a new class of ballistic 
missile submarines was during the Nixon administration. The 
next time will be in 2021 as we start to build the Ohio 
replacement class, almost 48 years later. Recapitalizing this 
force is a solemn duty we have to the nuclear security of 
future Americans as well as allies. And I want to emphasize 
with regard to the Ohio replacement program, we are designing 
it in close partnership with the U.K. [United Kingdom], as they 
have to replace their Vanguard class.
    So the common missile compartment and the D-5 strategic 
weapons systems will be common between both of our countries, 
and both of our nations are committed to making sure that we 
provide this capability on time.
    Because ballistic missile submarines are infrequently 
procured, they are not part of the Navy's stable shipbuilding 
plan. Because this is episodic, it is an infrequent but 
critical responsibility for our country. It is not built into 
the rest of our shipbuilding plan.
    In order to maximize the stability and cost efficiency of 
the existing ship programs and to avoid reducing the size of an 
already stressed Navy, the funding of existing programs should 
not be disrupted. So often we hear the debate of, well, you can 
either afford your general purpose force Navy, or we are going 
to have to go ahead and do this ballistic missile force 
investment, and we pit two equally important strategic 
instruments of power against each other, which is just, you 
know, an inappropriate friction.
    So as Mr. Chairman mentioned, to best accomplish this, 
Congress must look at a way to provide an annual supplement to 
the Navy during the very small margin of time that we 
recapitalize the submarine. So we will build these 12 ballistic 
missile submarines, two less than what we currently use to 
provide strategic deterrence, in a 15-year period, and these 
SSBNs will serve for a 42-year life. So the return on 
investment is sort of amortized over four decades as we go 
ahead and recapitalize our SSBN force.
    And so for a supplement amount of about $4 billion per 
year, and to make that clear to the rest of the shipbuilding 
industry, we can provide the stability we need to do both, to 
build the right Navy forces, general purpose forces, as well as 
recapitalize our SSBN force.
    Now, that is a $60 billion total, and we have mentioned 
that that is a lot of money. And, again, we are doing 
everything in our power, and believe me, we are working on 
affordability as one of our top priorities, higher than even 
some of the military capabilities of this replacement SSBN. But 
$60 billion in the grand scheme of the Department of Defense 
budget represents less than 1 percent. So what we are looking 
at is do we have the will as a Nation to be able to identify 
less than 1 percent of the budget, to go ahead and commit it to 
this 15-year recapitalization commitment without having an 
adverse impact on the rest of our general shipbuilding force.
    Just to try to give some examples to make this more 
germane, let's say we only are able to identify a $30 billion 
supplement, or $2 billion a year over the 15-year period. If 
the Navy has to absorb that other $30 billion, we would be 
required to cut from our other general purpose forces four 
attack submarines; four large surface combatants, DDGs [guided 
missile destroyers]; and another eight combatants. So the Navy 
with only half of that supplement would have to compromise and 
build 16 less ships for the inventory. And those numbers double 
without any supplement to this important national strategic 
priority.
    The last comment I would make is, and I agree with Chairman 
Forbes, is that I do think it is important for the country to 
look at this as a requirement above the Navy. It is a strategic 
level requirement and we ought to give it the gravity of 
attention and focus and insulation from the pressures of 
sequestration.
    That said, the control of those resources must remain 
resident within the Navy with the control of our acquisition 
community. We know how to build submarines, we know how to 
oversee the building of submarines. Electric Boat, Huntington 
Ingalls, best submarine shipbuilders in the world. We need to 
be able to make sure that if we come up with a creative, you 
know, strategic account for this, that it is still the Navy and 
the shipbuilding team that has the control and authority over 
those monies as we do this recapitalization to make it as 
affordable as possible.
    Mr. McIntyre. Now, I appreciate the thoroughness and the 
explanation, and I agree with your analysis, and ideally would 
like to be able to look at it in a way with the supplements and 
from this more strategic DOD perspective, since, as you know, 
in the outset of my opening comments, the submarine force is 
clearly, as you have said, the crown jewel, and as I was saying 
in my opening comments is unmatched worldwide, and we know you 
are at the forefront.
    With regard to the priorities, when you talked about we 
would have 16 less ships, so in other words, I guess, more 
precisely, what I am asking if we unfortunately are put in that 
situation of making priorities, you feel like it is so 
important that we have to go ahead absolutely with the Ohio-
class replacement submarines, and in the unfortunate situation 
it is, is it is going to make the loss of other ships if those 
priorities have to be shifted around. Is that correct?
    Admiral Breckenridge. Yes, sir, that is exactly correct. 
And the CNO has stated his number one priority as the Chief of 
Naval Operations is our strategic deterrent, our nuclear 
strategic deterrent. That will trump all other vitally 
important requirements within our Navy. But if there is only 
one thing that we do with our shipbuilding account, we are 
committed to sustaining a two-ocean national strategic 
deterrent that protects our homeland from nuclear attack, from 
other major war aggression, and also acts as an extended 
deterrent for our allies.
    Part of the reason we have been able to avoid proliferation 
of nuclear weapons around the globe is the great responsibility 
the United States has to assure our allies that we will also 
provide deterrent effectiveness for them so that they don't 
have to pursue their own nuclear weapons. If we don't build 
these 12 SSBNs on this timeline, and again, it to me is mind-
staggering how much risk as a Nation that we have taken with 
regard to this recapitalization timing decision. Even last year 
in the Budget Control Act, we decided to delay this program by 
2 years, such that we are going to go down to a minimum level 
of 10 SSBNs during the transition between Ohio's timing out at 
42 years and the Ohio replacement coming on as a new class. 
That is just an astronomical challenge for us to be able to 
maintain our vibrant and credible two-ocean deterrent to deter 
bad behavior from powerful adversaries.
    Mr. McIntyre. Thank you. That is the kind of summary that I 
think is well stated and succinct, and that that message, I 
hope and encourage you all to get that bullet point kind of 
message so that our fellow colleagues can understand that 
clearly, that this is what will happen, you know, one, two, 
three, this is what our priorities are. And the way you have 
stated the CNO's priority and how what you gentlemen do fit 
into that is essential.
    I have one other quick question, Mr. Chairman. I mentioned 
in the opening remarks, and I don't want this to go by, because 
I think it is a question. The large number of unmanned 
underwater vehicles, will that allow the Navy to--I mean, could 
a large number of unmanned underwater vehicles allow the Navy 
to expand global undersea presence in a way that would make it 
more cost-effective and that possibly could avoid building some 
of the larger, more expensive manned submarines, or in light of 
what you have just clearly explained about their importance, is 
there a way in which manned and unmanned submarines could work 
together to make the fleet more effective obviously from a 
defense standpoint, but also from a cost-effective standpoint, 
and how does that fit in as we do look ahead from the cost side 
as well as the effectiveness side?
    Admiral Breckenridge. Yes, sir. The manned platform 
provides the country incredible influence and access from the 
undersea domain. And as I work on the integrated undersea 
future strategy, the platforms remain paramount in importance. 
You know, we mentioned this minimum number from force structure 
analysis of a 48 red line that we are going to go below for 
over a decade as we bottom out to 42, based on decisions made 
in the 1990s. That minimum red line doesn't really represent 
the COCOM demand.
    To keep 10 attack submarines forward deployed across the 
globe in the hotspots and the places that they are operating 
today requires a force of about 50 attack submarines. The COCOM 
demand for what our undersea forces provide is about double 
that requirement. So each year as we go to each of the COCOMs 
and say, what do you need from an undersea presence perspective 
for intelligence, surveillance, reconnaissance, for Tomahawk 
inventory in theater, for the other unique capabilities that 
submarines provide, the combatant commanders typically request 
greater than double the 10 SSNs that we are able to provide.
    So there is always going to be a high demand for platforms, 
of which we are not going to--you know, we are going to have 
to, you know, make tough decisions and not be able to support 
that.
    So with regard to UUVs being a solution to reducing our 
force structure, I don't see that as a likely utility of 
unmanned undersea vehicles.
    That said, is we have some untapped potential in the 
undersea domain and the advantage that we have in the undersea 
domain that we can leverage even greater than our manned 
platforms. And I think a strategy of using unmanned vehicles, 
of using seabed infrastructure with energy coms and power--I am 
sorry, sensors will be vitally important to maintain our 
advantage in the undersea domain.
    So we are beginning as a Navy to do exactly as you have 
recommended, and that is, how do I get even more bang for the 
buck in that domain given the very tight limits, even with the 
mobility we have with our nuclear fleet, that one ship can only 
be in one place at one time. So what can I do to even leverage 
greater influence, and it is going to come down to these large 
displacement UUVs. And we are beginning to, you know, build 
momentum, to have those to supplement.
    Now, what will they do? What they will do is the missions 
that are dull, dangerous, dirty or deceptive that the SSNs 
can't do. So what we will do is we will be able to free up 
those manned assets to go do our Nation's bidding at that 
appropriate level while these UUV surrogates are able to take 
care of sort of the run-of-the-mill missions where I don't have 
to commit a manned platform to do it.
    Mr. McIntyre. Thank you, Mr. Chairman. And thank you, 
gentlemen.
    Mr. Forbes. And, Admiral Breckenridge, before we go to our 
next member, I just want to clarify the answer you gave to 
Congressman McIntyre. As I understand, you were saying right 
now to have 10 forward deployed attack submarines, we would 
need 50 in the fleet.
    Admiral Breckenridge. I am sorry, sir. I was a bit unclear 
there.
    Mr. Forbes. Maybe I misstated it.
    Admiral Breckenridge. Yes, sir. A force of 50 total 
submarines in the Navy, we are able to keep 10 attack 
submarines forward deployed 365 days of the year.
    Mr. Forbes. I got you.
    Admiral Breckenridge. So that is sort of the ratio in 
peacetime.
    Mr. Forbes. And our combatant commanders need, I believe 
you said, to meet their requirements, 20----
    Admiral Breckenridge. That is right.
    Mr. Forbes [continuing]. Forward deployed.
    Admiral Breckenridge. Yes, sir.
    Mr. Forbes. Would that math equate to needing 100.
    Admiral Breckenridge. Yes, sir.
    Mr. Forbes. Just wanted to make sure----
    Admiral Breckenridge. Yes, sir.
    Mr. Forbes [continuing]. We have that clarified.
    Admiral Breckenridge. That is right.
    Mr. Forbes. The distinguished gentleman from California, 
Mr. Cook, is now recognized for 5 minutes.
    Mr. Cook. Thank you very much, Mr. Chairman. And Admirals, 
thank you.
    This is kind of ironic. You got an infantry officer from 
the Marine Corps that is going to ask some questions. So I do 
have to make a comment, and that is, many years ago when I was 
a captain--that was about 1775--captain in the Marine Corps, I 
had the honor to meet Admiral Rickover, and I have to tell you, 
I talked--was in a mess line, ironically enough, and one of the 
most brilliant individuals in the world, but I have to say, one 
of the most intimidating, and I don't get intimidated easily, 
but of course, you guys went through the Academy and screened 
through the program, and you probably know that better than I 
do, but I think you talk about somebody a long time ago that 
realized how important submarines were, and what he did for the 
Navy, for the country and everything else.
    My fear is that a lot that has happened in the past, the 
importance of what you do, and I went to the War College and I 
tried, you know, to understand--and I am one of your big 
supporters, because it is a force multiplier in so many 
different ways, and I think you explained that tremendously.
    I am afraid that it is becoming the silent service in terms 
of the slice of the pie, you know, that DOD has when all those 
things that you outlined so eloquently, you know, the public 
just doesn't understand it. And it is almost like it is not 
glamorous. And you mentioned it yourself about some of the 
other things, and the remotely pioneered--powered vehicles, and 
I can go on and on and on all the different things.
    So I would hope that we can kind of change that, because I 
think you are going to have some tough times in the budget 
battles coming up, and a lot of it is going to be on public 
perception so that--the people in this room, I think, are big 
supporters of it, but this isn't going to be enough, and we 
have got to change that.
    The big question I have is, very quickly, about the intel 
that the Russians and the Chinese have stolen, quite frankly, 
from the United States. I am worried about this leakage, if you 
will. They have got the money, they have got the will to 
replicate what we have in your service. And do you have any 
comments on that, because after what happened with the recent 
scandal, it just frightens me to death that this is going to 
continue to happen. And you have indicated that they are going 
to do something about that. They have the money, the will and 
power to do that, and they are going to pass us in terms of 
overall technology.
    Admiral Breckenridge. Yes, sir. A few comments before I 
answer your question. So Dave and I are classmates from the 
proud class of 1982 at the Naval Academy. We were the last 
class to interview with Admiral Rickover.
    Mr. Cook. Was it fun?
    Admiral Breckenridge. We will save that for another 
hearing.
    Mr. Forbes. It should be a classified hearing, probably.
    Admiral Breckenridge. But Admiral Rickover still lives in 
our nuclear force today. And I am very proud to say that. What 
he brought into the culture of our nuclear-trained force 
provides incredible return for the greatness of our Navy in 
leadership, in discipline. The Rickover method is--I am proud 
to say that I passed interview with Admiral Rickover.
    The second thing that you mentioned is, I agree with you, I 
think we are victims of our covert nature. And there is not 
enough of America who understands or appreciates the brand that 
is attack submarines, especially our ballistic missile force. 
You know, these sentinels have gone for over 50 years on 
continuous strategic deterrent patrols in two oceans, over 
4,070-day patrols, safeguarding and protecting the United 
States of America. And I would tell you that there is probably 
less than 1 percent of the American citizens that even knows 
what role that they can play, that they can sleep well at 
night.
    So we have to do a better job in getting that word out. And 
I thank Chairman Forbes for this opportunity. I view this as so 
important, to be able to get over here and lift a little bit of 
the veil and discuss the paramount importance of our undersea 
forces.
    That said, there is a lot of things that are supersecret 
that must remain so by nature of what we do and we will push 
that as far as we can of that line. But we are more than happy 
to come over and give you highly classified briefings of some 
of the recent take around the globe of what our submarine force 
is doing.
    And what was the specific question?
    Mr. Cook. The intel.
    Admiral Breckenridge. Yes, sir.
    So safeguarding our national secrets, particularly from 
industry. You know, so the Walker-Whitworth espionage case that 
compromised a lot of the lead that we had with stealth in the 
undersea domain. And that is the coin of the realm. You know, 
he who is more silent has the advantage over another. That was 
compromised through spy craft. Nowadays with that spy craft 
spreading to cyberexploitation and other ways that adversaries 
can get information and leapfrog America's ability on the cheap 
is an imposing threat to us, and we take that very seriously.
    So part of our hard work within DOD is to put up those 
firewalls even tighter, also with industry to make sure that we 
have the right standards there to safeguard and protect that 
information from being stolen.
    Mr. Cook. Thank you very much. Thank you, Mr. Chairman.
    Mr. Forbes. And having that infantryman on your side is a 
pretty good asset to have. Our good friend, Mr. Courtney, has 
little interest in submarines, but we are hoping he will have a 
few questions to ask for the next 5 minutes. So Joe?
    Mr. Courtney. Thank you, Mr. Chairman. Again, when we talk 
about the submarine gap, which you have done an outstanding 
job, I think it is important really also for the record to 
remember that it was this subcommittee that in the spring of 
2007, actually led the way in terms of an increase in submarine 
funding. Over the objection of the prior administration, $588 
million which, again, kick-started the two-sub-a-year 
production which, again, the North Dakota is ahead of schedule, 
under budget because of the quantity, economic quantity 
savings. It was an incredibly important moment in terms of 
addressing that submarine gap.
    But last night, I was walking around the Capitol with the 
moonlight, thinking about, obviously, the anniversary of 9/11. 
And I was walking by Jack Murtha's maple tree which was planted 
there. And he, along with Gene Taylor and Roscoe Bartlett and 
others, were part of the group that, again, led the way to make 
sure that happened. And it is a reminder that we all can make a 
difference here, and this subcommittee can make a difference in 
terms of making sure that the important issues that you have 
raised here today aren't going to get lost.
    And the good news is, is that the Navy's request, which 
came over with the administration's budget, the House defense 
authorization bill and the House defense spending bill all 
basically provide for two subs a year and full funding for 
design work. And we have got to work on the Senate a little bit 
with the Virginia payload. But there really actually is quite 
extraordinary consensus in terms of the fact that we need to 
protect this. And hopefully the bipartisan budget negotiations 
that are going to start today are going to get us to a point 
where we can, again, avoid all the negative consequences that 
you have described here today.
    One of the issues, again, which my friend Mr. McIntyre 
raised was obviously that bulge in the shipbuilding account 
that we are looking at. Again, it is important to start talking 
about a national security funding mechanism, a la the missile 
defense, as a way of trying to solve that problem. That is 
probably a little bit off in terms of a decision point for 
Congress. The one thing that we can control today is obviously 
trying to keep the costs down by making sure that the defense, 
the design, and engineering budget requests for Ohio 
replacement is protected. And the one thing I am concerned 
about, if a CR [continuing resolution] mechanism--and let's set 
aside sequester for a moment--even if we do a straight CR 
without sequester, using last year's budget levels, again, that 
leaves a shortfall in terms of making sure that we are going to 
get that investment in the design work. And I was wondering, 
Admiral Johnson, if you could talk about that.
    Admiral Johnson. Thank you, Congressman Courtney.
    So under a continuing resolution, because of our starting 
point in fiscal year 2013, which is about half of what the 
budget request is for fiscal year 2014, a CR is particularly 
harmful to the program. Because it is research and development, 
the Department has the latitude, if it chooses, to alleviate 
some of the issue of that by actually putting in research and 
development funding to keep the program on its up-ramp.
    As Admiral Breckenridge noted, in 2012, that was our time 
to increase the designers and buying material and increasing 
our prototyping work to support a 2019 lead ship. That has been 
indexed to the right 2 years. So now it is 2014. 2014 is the 
year that we need to significantly upscope our work so that we 
are ready for a 2021 build. Continuing resolutions and 
sequesters hamper my ability to plan and execute the program 
required to tell Admiral Breckenridge that I will have a 
submarine ready on patrol in 2031. The time scale really does 
lay out that long.
    So I think from a standpoint of where I sit, a CR, though 
it is harmful if it is not mitigated by the Department, a 
sequester is another issue because that is an outright cut 
against the line, and that will, in fact, delay me.
    As Rick said, ``insulate'' is a good word; but we do have 
to take a step back and look at how should we continue to fund 
this program? Do we continue the levels that we have put into 
the budget to support us to have the research and development 
prototyping and the design products disclosed to keep the 
shipbuilding done predictably?
    We have a very challenging shipbuilding schedule on this 
ship. We are going to build it in 84 months. It took Virginia 
86 months. That ship is about the third the size of Ohio 
replacement. Now why would we think we could do that? The 
reason is we have the experience of Virginias. At that time, we 
will have at least contracted for over 30 Virginias by the time 
Ohio replacement ship one is under contract.
    So that alone, along with what we know now and how we are 
designing the ship, we think we can be ready to build an 84-
month ship. But you back up 2021, 2028 is when I have to have 
the ship built for a 2031 deployment. That means I have to 
sustain the research and development and the design work now so 
that I am ready in 2021.
    Mr. Courtney. Thank you, Admiral.
    Mr. Forbes. Mr. Courtney, we thank you for your service and 
all of your hard work.
    Admiral, as I understand what you have just responded to 
Mr. Courtney, that delays that we are putting into effect today 
will impact your ability to even deliver in 2031, that far out; 
is that a correct assessment?
    Admiral Johnson. That is correct. Yes, sir.
    Mr. Forbes. The gentleman from New Jersey, Mr. Runyan, is 
recognized for comments.
    Mr. Runyan. Thank you, Mr. Chairman.
    Admiral Johnson, you kind of touched on it with Mr. 
Courtney's answer. I had an opportunity to go down to 
Huntington--I think it was a little over a year ago--and asked 
them the question. As we get here--and God help us that we are 
not in this budgetary climate 20, 30 years from now. But as we 
move down the road, when does the Navy start to put the crunch 
on the shipbuilders to say, you are going to build these in 
less and less time, as we try to anticipate our adversaries' 
steps forward and actually make that time longer? So just in 
your thought processes, in the acquisition realm on that.
    Admiral Johnson. That is a great question, Congressman, in 
that we are doing that today. We are today in the Navy Yard 
sitting across from our Huntington Ingalls and Electric Boat 
partners with my folks and the NAVSEA [Naval Sea Systems 
Command] folks to negotiate the next 10 ships, the 19th through 
the 28th ship. If you look at where we were in Virginia, it 
took 86 months to build that ship. The ship we just 
commissioned, the Minnesota, was delivered in 63 months. So we 
have actually taken almost 2 full years out of the build 
stroke. We are approaching a point where we can't, on that 
level magnitude, reduce the build span. Maybe we will get to 
the mid 50s if, in fact, we continue to work this. We certainly 
are challenging the shipbuilders along those lines because time 
is money in the shipbuilding programs. And if we can get these 
ships out quicker, it gets those to Admiral Breckenridge and 
Admiral Connor so they are able to be used. As I said, we have 
already returned 40 years of additional utility because of this 
thinking. But it also lowers the cost of these ships.
    Mr. Runyan. I appreciate that. Because I think sometimes--I 
know we experience on the HASC [House Armed Services] 
committee--sometimes I don't think the DOD thinks far enough in 
the future to really acquire the savings and the planning. I 
mean, obviously you have said a lot of what we are doing hasn't 
changed in 20 years, especially in the submarine venue. And 
that has some cost savings to it in the long run and being able 
to plan for that stuff over the long haul. I have nothing else, 
Mr. Chairman. I yield back.
    Mr. Forbes. I thank the gentleman.
    Mr. Langevin is recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank both 
our witnesses for being here today. I appreciate your 
testimony, especially as we navigate the complex and 
challenging issues that we are facing right now.
    Like Mr. Courtney, I have a slight interest in submarines. 
So I want to turn to that right now. As I am sure you are 
aware, the CNO Admiral Greenert stated on September 5 that 
shipbuilding will drop in fiscal 2014 and, specifically, that 
he envisioned the loss of a Littoral Combat Ship and afloat 
forward staging base and advanced procurement for a Virginia-
class submarine and a carrier overhaul.
    Can you elaborate on what the CNO is referring to? In 
particular, with respect to subs, would this be a fiscal year 
2015 or fiscal year 2016 boat? And how would this affect the 
proposed Block buy?
    Admiral Johnson. Thank you, Congressman. As we look at the 
sequestration continuing forward, that will impact my ability 
to obviously fully fund not only the full funding for the ships 
in those years but the advanced procurement. If you look at 
2013, 2013 took out $492 million out of the Virginia program 
specifically. Split between those ships and 2013 and the 
advanced procurement for the 2014 and 2015 ships. That same 
effect happens in fiscal year 2014. If it happens at the levels 
we estimate, which is around 14 percent, that is almost $750 
million out of the Virginia accounts in fiscal year 2014. And 
the way the Department handled it in fiscal year 2013 is, we 
have cost to complete bills that have now moved forward. This 
committee was--we appreciate the add of $492 million showing up 
in the 2014 budget for overcoming the sequester in 2013. That 
type of behavior has to continue in 2014 and on. If we 
eventually can procure 100 percent of a ship when, in fact, 
have only been paid for 86 percent of a ship under the 
sequester. I can't give you the specifics on what the CNO was 
talking about relative to which ships. Is it a fiscal year 2015 
or 2016 ship? But it will, over time, potentially impact that 
Block IV 10-ship procurement, fiscal year 2014 to 2018, those 
ships. Our tack right now though is to try to preserve that 10-
ship buy but then have the Department fund cost to complete 
builds for the cuts that we have taken in the intervening 
years.
    It will be more challenging to sign off on a 10-ship 
multiyear when, in fact, the budget doesn't reflect full 
funding for all 10 ships going forward.
    Mr. Langevin. Okay. So let me turn also then to Ohio 
replacement. As I am sure you are well aware, the Navy ship 
over budget clearly comes under significant future strain, as 
the Ohio replacement program comes online. And to quote your 
Department's 30-year shipbuilding plan, the cost of the Ohio 
replacement SSBN is significant relative to the annual ship 
procurement resources available to the Navy in any given year. 
At the same time, the Department will have to address the block 
retirement of ships procured in large numbers during the 1980s 
which are reaching the end of their service lives. And the 
confluence of these events prevents the Department of the Navy 
from being able to shift resources within the shipbuilding 
account to accommodate the costs of the Ohio replacement SSBN.
    The plan further states that if the Navy has to take these 
costs out of hide, the effects on the Navy's battle force will 
be such that the fleet will not be as sufficient to implement 
the defense strategic guidance.
    So with that, can you inform the subcommittee as to the 
current progress of efforts to fund the Ohio replacement 
program as part of our deterrent and the national strategic 
imperative outside the Navy shipbuilding budget akin to a 
military sealift or ballistic missile defense? And 
alternatively, is there talk of a supplement to the Navy 
shipbuilding budget because of the strategic comparative 
resident in ORP [Ohio replacement program]?
    Admiral Breckenridge. Thank you, sir.
    Just a little back step in history to talk about the two 
other times that we have had to, as a Nation, build the 
strategic deterrent. So in the 1960s, we built 41 SSBNs. They 
were called ``The 41 for Freedom.'' We did that in a 7-year 
period which, again, is just an incredible--only in America 
could you go ahead and put out 41 ballistic missile submarines 
in a 7-year period. There was an impact to other shipbuilding 
accounts at that time. But the priority was such for national 
survival that we had to go ahead and make that an imperative 
and a priority. There was a supplement to the Navy's top line 
at that time when we fielded the class, but it did cast quite a 
shadow over the rest of the shipbuilding in the 1960s.
    We recapitalized those 41 for Freedom with 18 Ohio-class 
SSBNs in the 1980s. It was the Reagan years. There was a major 
naval build-up. And underneath the umbrella of that build-up, 
we were able to afford, as a Nation, the recapitalization of 
building 18 SSBNs. Again, a very great success story from a 
shipbuilding industry perspective. The maturity, the stability. 
You know, Electric Boat, as they punched those out, did it at a 
great bargain for the country to have that capability. Still 
around today. A 30-year designed submarine that has been 
extended half again to a 42-year total service life is just 
sort of mind-staggering.
    We are at that point right now where there is no more 
delay, there is no more room to absorb risk in schedule where 
we have to recapitalize the strategic deterrent force. The Navy 
recognizes that without a supplement, this is going to have a 
devastating impact on our other general purpose forces ship and 
supports and is working with OSD [Office of the Secretary of 
Defense] and with Congress to identify the funds necessary, 
which I mentioned earlier represent less than 1 percent of the 
DOD budget for a 15-year period to go ahead and provide relief 
and fund this separately above and beyond our traditional norms 
for our ship control budget.
    So we are at the point where we need to really make this 
decision. The stability of our other industrial bases count on 
us at this time, as Admiral Johnson pointed out the schedule as 
we march towards construction in 2021, is it is time to develop 
this plan. It is time for, as Congressman Courtney mentioned, 
you know, the courage that we have in Congress at moments like 
this in our Nation's history with pivotal decisions regarding 
shipbuilding that we go ahead and do the right thing by the 
wholeness of the Navy as well as recapitalizing this vital 
strategic imperative.
    Mr. Langevin. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Forbes. As we talk about those pivotal times and, as 
Mr. Courtney said, need to do that, one of the things that 
helps us is information. And in our markup that we sent to the 
Senate, we requested the CNO [Chief of Naval Operations] to 
give us an accurate depiction of where we will be with 
shipbuilding based on the numbers that we can project. He has 
said he is willing to do that.
    This is not a question for you, but a request. If you 
could, perhaps, ask the CNO and the Department, it would help 
us. Because we talk about a 30-year shipbuilding plan, we 
actually talk about it as if it is going to happen. And it has 
been a little more than fantasy world in the past. But it would 
be great for us to be able to show other Members and the 
public. This is our 30-year shipbuilding plan. Here are the 
numbers we can realistically expect based on the last 30 years. 
And there is a $4 billion shortfall annually there. But then, 
what is going to happen with sequestration if that carries 
through? Because I think if we showed those pictures, it is a 
frightening scenario for most individuals. It is my pleasure 
now to recognize the chairman of the Readiness Subcommittee, my 
good friend from Virginia, Rob Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Johnson, Admiral Breckenridge, thank you so much 
for joining us. Thanks so much for your service to our Nation. 
It means a lot, especially in these challenging times, to have 
your leadership there.
    Admiral Breckenridge, I want to begin with you. Give me 
your vision about how the Ohio-class replacement program is 
going to play out. And the reason I ask that is putting it in a 
context of where we are now, with a tremendously successful 
program with the Virginia class where we have a teaming 
agreement with Electric Boat and HII [Huntington Ingalls 
Industries], is that--what I think is a very efficient model, 
is that a good, cost-effective way to look at how we pursue the 
Ohio-class replacement program?
    Admiral Breckenridge. I will take the first swing and then 
I will turn it over to the expert, sir.
    Good morning. Great to see you. Thanks again for hosting 
that breakfast yesterday. I really appreciated the opportunity 
to participate in that.
    Sir, for a moment like this in our Nation's history, we are 
going to depend and rely on the best engineers, the best ship 
pipefitters, the best--you know, across our submarine 
industrial base to make sure that we don't miss a beat and that 
we deliver this national imperative. So this is going to 
require a whole team effort. You know, both Electric Boat and 
expertise from Huntington Ingalls are going to need to be 
brought to bear with this challenge, make no mistake about it.
    Now you mentioned a great point. And I have talked a lot 
sort of in hyperbolic terms about the risk and the compounded 
risk we have taken. I am optimistic, as a submariner and as the 
director of undersea warfare, that we have this incredible 
juggernaut that is our submarine shipbuilding industrial base 
that is just humming in all cylinders with the Virginia class. 
And we are going to be able to leverage that to be able to pull 
off a pretty daunting challenge with the recapitalization of 
the SSBN force. So I am very optimistic that we have the talent 
in America. We have the capacity in America. We are going to 
have to ramp up, as Admiral Johnson mentioned, to address that 
challenge. But as far as the procurement strategy, which I 
think is at the base of your question, I will turn it over to 
the acquisition specialist to discuss that with you.
    Admiral Johnson. Thank you. Thank you, Congressman. Thank 
you for that question. We have not yet determined how we will 
procure the build of the Ohio replacement. It is still a little 
bit to the right in our construct of thinking. Virginia, 
obviously, a success story under a teamed arrangement. Whether 
Ohio replacement follows on that or actually does more of a 
prime sub relationship, yet to be determined. But I think it is 
fair that as we acquire, I ask that we use the investments we 
have put into the submarine industrial base to the maximum 
extent possible. We built, as Admiral Breckenridge said, 
significant capacity, capability, and competence in our 
submarine industrial base both at Groton, in Rhode Island, as 
well as at Huntington Ingalls in Newport News. And our intent 
is to leverage that to the max extent possible for Ohio 
replacement.
    Mr. Wittman. Very good. Well, thank you. And I think your 
comments reflect how important the talent is with both of those 
great shipbuilders. And as you know, that industrial base is an 
important part of it, too. So to seamlessly go into that next 
generation of ballistic missile submarine is an important 
element, I think, in the decisions you all have to make.
    Let me ask this: You have talked a lot about the attack 
class of submarines. Putting it in perspective, [we've] talked 
a little bit about sequestration. Let me ask you this: In 
another envelope of having to make decisions, we are now at a 
pretty significant rate of retirement of the Los Angeles class. 
So you take that and coupling what potentially the effects are 
of sequestration. Give us your perspective about what both of 
those events colliding might mean for our attack-class 
submarine fleet.
    Admiral Breckenridge. Yes, sir. Thank you.
    As I mentioned, beginning in 2025, we are going to dip 
below the red line, the minimum agreed by all parties, break 
glass if you cross this line, minimum force structure. We are 
going to be below that line for a period of greater than a 
decade. The minimum right now, with our current program of 
record of two per year Virginia construction is 42 submarines 
in approximately 2030.
    The depth of the trough is not as significant to me as the 
width of the trough. So whatever I can do to soften that. And 
so our integrated strategy looks at that. There are three 
things I would like to talk about to mitigate the risk that, 
one, the Navy is below 48 SSNs. Number one is, as I build 
Virginia class down at the 60-month point or less and get those 
to the fleet quicker, that will have an effect on that trough. 
That will give me more assets available during that time 
period. So any efficiencies that we can make regarding the 
delivery schedule is a win.
    The current Los Angeles class, we are carefully monitoring 
each hull. How much life is in their core, you know, what are 
their other system health looking like to see if we can maybe 
get a year or two extension on the Los Angeles classes. Again, 
I don't like to talk about that as part of the plan because if 
we suddenly have an intense period where I am surging 
submarines, I am going to eat that margin. And so I sort of 
keep it as an ace in the hole.
    The last thing that we are looking at--and, you know, 
again, it is a combination of forward deployed assets. We are 
looking at going from three attack submarines to four in Guam. 
We are looking at extending deployments during that time period 
from a nominal 6-month deployment force to a 7-month deployment 
force.
    So there are a few other things that we can do to soften 
the blow of being below the minimum force structure. But the 
critical things that we must do is, as you mentioned, not 
decommission any submarines before their time. If there are 
some cost efficiencies that we might see there in a 
sequestration-like myopic view of saving money, or disrupting 
the two per year Virginia. And those are two very important 
parts of the strategy to take care of that SSN shortfall.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Gentlemen, thank you for being here.
    And I would like to just make sure I have given each of you 
any additional time you need to wrap up anything that we have 
left out that you think is important to have on the record. Any 
clarifications that you would like to make. And Admiral 
Breckenridge, since you started off, I will let you go.
    Admiral Breckenridge. Well, Mr. Chairman, again, I thank 
you very much for this opportunity to come this morning to 
showcase one of the things that is vibrant and healthy and is a 
powerful part of our national security strategy, and that is 
our influence within the undersea domain. We have talked a lot 
about some dire things ahead as we look at risks coming up. But 
I want to emphasize on a positive note as we wrap up today that 
the men and women that man our Nation's undersea craft--our 
SSBNs, SSGNs, and SSNs--are just incredible warfighters. Most 
recently we have opened the hatches to women onboard 
submarines, you know, on our SSGNs and SSBNs. These officers 
are performing in an incredibly exemplary fashion.
    We are fortunate, as a Nation, that our sons and daughters 
that we are able to recruit and bring into this very 
specialized field are as talented and gifted as they are. So 
your submarine force is out there doing great work, very 
important things vital to security, and undergirding that is 
this industrial base. A history lesson, as we sort of shut down 
the submarine industrial base post-Cold War, we went for a 
period of 8 years where we only built two submarines. That is a 
quarter of a submarine a year. Those were dark times for our 
Nation.
    The fact that we have come through that and we now have 
this vibrant shipbuilding industrial base is, we sort of 
cheated death. And we are very fortunate that that is as 
healthy and moving in all the right positive directions. And we 
need to preserve and protect that with every instrument of 
resources that we have as a Nation.
    So I know that we are in tough fiscal times in this country 
and we have to look at hard decisions. But we are doing 
everything within our power to try to come up with an 
integrated strategy to make sure that we don't lose our grip on 
this advantage that we have in the undersea domain.
    So, sir, I thank you very much for the opportunity to speak 
with you this morning.
    Mr. Forbes. Thank you, Admiral. Admiral Johnson.
    Admiral Johnson. Yes, sir. And again, I will echo Admiral 
Breckenridge in thanking you for the opportunity to talk about 
the submarine force. It is a pretty good day when we get to sit 
up here and talk about the programs and the progress that we 
are making. I do think it is very important, as you have noted, 
that we sustain the drumbeat we have established with Virginia. 
It was a little bit of a climb to get in the 2011 budget. As 
Congressman Courtney noted, we got to two a year through a good 
bit of the actions this subcommittee took to get us in a 
position to be at two a year. We are there, and we are now 
seeing the benefits of it. Ships are being delivered not only 
earlier, but we are also turning them over to Admiral Connor 
and the fleet forces earlier.
    One of our metrics is the time it takes to take a ship from 
a delivery and get it into the fleet readiness training 
program. It took 30 months for Virginia. On North Dakota, it 
will be less than 12. So not only are we building them faster, 
but they are ready to go to the fleet full up, get ready for a 
mission and deploy and do the Nation's bidding. So I think that 
is very important that we do not disrupt this drumbeat. And 
that drumbeat isn't just at HII or Electric Boat, but it is 
also in the 4,000 suppliers across the 50 States. It is very 
important as we grow this competitive industrial base that we 
sustain the continuity of the Virginia program.
    We also have to think, I think, a bit innovatively about 
Ohio replacement. As we get into the build of that and 
sustaining at least a two-a-year build rate to the vendor base 
means that we might have to think about multi-yearing across 
both a Virginia-class and an Ohio-class SSBN so that the vendor 
base still sees two ship sets of something coming out every 
year. That will help us to keep the continuity and the cost 
down as we go into the build for Ohio replacement and not 
disrupt the pricing that I think you expect me to deliver on 
those ships.
    I can tell you that we are leading the charge in 
affordability. We are at the forefront of implementing 
Secretary Kendall's efforts. And every day my program offices--
from the guys who do Virginias to Ohio replacements to 
torpedoes to combat systems--they think about it every day. And 
we hold ourselves accountable because in the end, we are short 
if we cost growth end results and less capability are delivered 
to the fleet.
    So my job is to deliver products affordably that the fleet 
can use. And it is not just talk. We have objective quality 
evidence, some of which I have talked about here today. So I, 
again, thank you very much for the opportunity to talk.
    Mr. Forbes. Well, once again, we want to thank both of you. 
You are very complimentary of the valuable assets we have in 
the United States Navy. This subcommittee recognizes both of 
you as two of those valuable assets. So thank you for giving us 
your time and expertise.
    With that, if there are no additional questions, we are 
adjourned.
    [Whereupon, at 10:30 a.m., the subcommittee was adjourned.]


======================================================================




                            A P P E N D I X

                           September 12, 2013

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 12, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 12, 2013

=======================================================================

      
      

                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. Per the House-passed FY14 NDAA Report directive 
``Submarine Propeller Repair and Overhaul'' (SPRO) the committee is 
concerned with the FY14 SPRO budget and FYDP proposal. The Navy has 
stated that ``funding requirements for propeller repair and overhauls 
are estimated based on historical and current year expenditures.'' In 
the Navy's August 27, 2012, response to HASC RFIs regarding SPRO, the 
Navy detailed historical SPRO funding levels between FY08-FY12. 
However, the August 27th response also proposed a very concerning FYDP 
funding forecast and a ``Repair Only'' ongoing approach to maintaining 
submarine propellers. Without addressing a mix of both ongoing 
propeller repair and overhaul needs, I believe that medium to high risk 
to submarine operational readiness remains. Additionally, I believe 
that the SPRO U.S. industrial base capability is highly skilled but 
very fragile. Adequate funding and budget planning is crucial to 
retaining this strategic asset.
    Please provide an update to the following:
    1. Provide to-date and planned/expected FY13 total funding 
expenditures for SPRO and break out base budget funding, reprogrammed 
funding, and OCO funding.
    2. Provide the funding level requested within the FY14 base budget 
and OCO, and across the FYDP.
    3. Provide a breakdown of the type and quantity of both repaired 
and overhauled propellers currently in RFI status.
    4. As stated, I am concerned with the Navy's ongoing proposed 
``Repair Only'' approach to SPRO as outlined in the August 27th 
response. I ask that the Navy reevaluate this plan and report back to 
the committee with an approach, to include both FY14 and FYDP funding, 
that adequately addresses the ongoing mix of both propeller repair and 
overhaul needs.
    Admiral Breckenridge and Admiral Johnson. 1. For the funding year 
FY13, the Navy allocated a total of $5.867M for SPRO consisting of 
$.418M base and $5.449M OCO funds. These funds have been provided to 
NAVSUP Weapon Systems Support to support for the repair work to be 
completed by the end of the fiscal year.
    2. SPRO funds contained in OMN FY14 and across the FYDP are shown 
in the table below.


----------------------------------------------------------------------------------------------------------------
                                 FY14           FY15          FY16          FY17          FY18          FY19
----------------------------------------------------------------------------------------------------------------
Base Budget (M)             $2.274         $2.358         $2.439        $2.493        $2.601        $2.691
----------------------------------------------------------------------------------------------------------------
OCO (M)                     $5.942         $6.055         ............  ............  ............  ............
----------------------------------------------------------------------------------------------------------------
Total (SPRO) (M)            $8.216         $8.413         $2.439        $2.493        $2.601        $2.691
----------------------------------------------------------------------------------------------------------------


    3. The Navy has a total of 19 propellers in RFI status at this 
time. Break down by type as shown in table below


----------------------------------------------------------------------------------------------------------------
      Type of Propeller            Total Quantity of RFI              Repaired                 Overhauled
----------------------------------------------------------------------------------------------------------------
I3B                           1                               1                         ........................
----------------------------------------------------------------------------------------------------------------
I3M                           6                               6                         ........................
----------------------------------------------------------------------------------------------------------------
LAHII                         7                               7                         ........................
----------------------------------------------------------------------------------------------------------------
IPMP                          1                               1                         ........................
----------------------------------------------------------------------------------------------------------------
SEAWOLF rotor                 0                               0                         ........................
----------------------------------------------------------------------------------------------------------------
TRIDENT                       4                               1                         3
----------------------------------------------------------------------------------------------------------------


    Hull applicability by Propeller Type:

    I3B--Applicable to SSN 688-720 only.
    I3M--Applicable to SSN 688-765, 767-770.
    LAHII--Applicable to SSN 751-765, 767-770.
    IPMP--Applicable to SSN 766, 771-773.
    TRIDENT--Applicable to SSBN/SSGN 726 class.

    4. The Navy shares the concern of maintaining the critical US 
industrial base for propeller refurbishments. The large majority of 
future propeller overhauls will be limited to the SSBN/SSGN 726 Class 
due to two factors:
    a. The current RFI inventory and SSN 688 demand history can be 
adequately sustained by ``Repair Only''. This is the prudent approach 
in a budget constrained environment.
    b. The decommissioning rates of SNN 688 Class submarines over the 
next decade will further reduce the demand signal for repaired or 
overhauled propellers.
    In addition to SSBN/SSGN 726 Class propeller overhaul activity, the 
propeller refurbishment industrial base will be supported by the VA 
Class propulsor rotor repair. These rotors are replaced on a periodic 
scheduled basis and, coupled with unanticipated failures, will provide 
additional work to maintain the industrial base.
    Mr. Forbes. What is the impact of sequestration on the Navy's 
acquisition strategy for the Virginia-class SSN program?
    Admiral Breckenridge and Admiral Johnson. The Fiscal Year (FY) 2014 
President's Budget includes ten submarines in Block IV, two per year 
for FY 2014-FY 2018. The Navy is currently negotiating the Block IV as 
a Multiyear Procurement (MYP) Fixed Price Incentive (FPI) contract and 
expects to sign it in early Calendar Year (CY) 2014 contingent on the 
passing of the FY 2014 Department of Defense Authorization 
appropriations bills. The full effects of sequestration in FY 2014 are 
not yet known. However, it is expected that the Navy will be able to 
fund the basic construction effort with Ship Construction, Navy funding 
for the FY 2014 submarines (SSN 792 and SSN 793), but will require 
additional funds to finish Government Furnished Equipment (GFE) 
procurements and testing. Additionally, sequestration will result in AP 
and EOQ reductions, thereby reducing the expected MYP savings. To 
maintain construction schedule, procurement of Long Lead Time Material 
(LLTM) occurs two years and one year prior to construction start, with 
two year AP used to fund the most critical long lead components. FY 
2013 sequestration reduced the Program's AP funding by $127M which was 
restored and is in execution. The Navy is evaluating the potential for 
sequestration reductions to the FY 2014 AP and EOQ to minimize the 
overall impact to the program.
    Mr. Forbes. How does the Navy intend to fulfill its requirements 
given the future retirement of the SSGNs in light of purchasing 
shortfalls of future SSNs?
    Admiral Breckenridge and Admiral Johnson. Submarines are meeting 
combatant commander requirements today. The future challenge will be 
ensuring that forward presence around the globe and surge requirements 
can be met with a smaller submarine force.
    VIRGINIA Payload Module (VPM) is needed to both 1) mitigate strike 
capacity of the decommissioning SSGNs and 2) provide flexibility to 
expand the range of payloads for the submarine force in response to 
evolving mission needs. The VPM will be a new hull section containing 
four large-diameter, SSGN-like, aft of the sail that can carry up to 
seven TOMAHAWK cruise missiles each and will be able to readily accept 
new future payloads. These future payloads could include unmanned 
undersea vehicles (UUVs) and advanced weapons, as well as additional 
sensors and stealth enhancements to counter capable adversaries, 
maintaining our dominance in the undersea domain. To reconstitute the 
payload volume lost when the SSGNs retire in the early 2020s in the 
most economical manner, the Navy must design the VPM now for 
incorporation into the Block V VIRGINIA Class contract that is schedule 
for awarding in Fiscal Year 2018.
    Mr. Forbes. In light of the Air-Sea Battle Concept, will the Navy 
fulfill its requirements given the shortfall in the number of SSNs?
    Admiral Breckenridge and Admiral Johnson. Air-Sea Battle is an 
operational concept designed to integrate air, land, and naval forces 
required to address evolving threats. Undersea Forces with their 
unimpeded access forward will play an important role within an Air-Sea 
Battle Concept.
    Air-Sea Battle is not an operational plan or strategy for a 
specific region, adversary, or geopolitical situation. Instead, it 
reflects an understanding of the threat and provides a means to develop 
symmetric and asymmetric advantages to counter and shape A2/AD 
environments. Air-Sea Battle seeks to develop an integrated force with 
the necessary characteristics and capabilities to succeed in those 
environments.
    As such, Air-Sea Battle doesn't define required capacity of the 
submarine force. Instead, our force structure requirements are based on 
Navy's force structure assessment (FSA) which is based principally on: 
a) meeting warfighting capability and response time requirements for 
Combatant Commander operational plans b) providing a sufficient 
rotation base to sustain global posture
    Navy's January 2013 FSA specified an SSN requirement of 48. Today 
we exceed that requirement with 54 SSNs. Based on Navy's PB14 
shipbuilding plan we are projected to fall below this requirement from 
2025-2034.
    Mr. Forbes. Will cost increases in the Ohio replacement program 
affect other ship building programs?
    Admiral Breckenridge and Admiral Johnson. Our ballistic missile 
submarines are the bedrock underlying our national nuclear deterrence. 
Because ballistic missile submarines are infrequently procured, they 
place added pressure on the Navy's shipbuilding budget when they are 
recapitalized once every other generation. To that end, the Navy must 
ensure it controls the OHIO Replacement SSBN's costs to ensure other 
shipbuilding efforts are not impacted and the Fleet has the right mix 
of ships.
    Cost control is of paramount importance to the OHIO Replacement 
program. The Navy is working with industry and other government 
activities to deliver the OHIO Replacement affordably while maintaining 
mission requirements. The OHIO Replacement Program will continue to be 
thoroughly reviewed and aggressively challenged to responsibly reduce 
engineering, construction, and operations and support costs. 
Additionally, the Office of the Secretary of Defense established 
aggressive cost targets for both operating and support costs and 
average follow-on ship costs for ships 2-12 of the 12 ship class to 
control OHIO Replacement's costs. The program is reviewed annually by 
the Office of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics to ensure affordability progress continues.
    Mr. Forbes. Will the Navy suffer a capability shortfall given its 
plan to replace 14 Ohio-class submarines with 12 vessels?
    Admiral Breckenridge and Admiral Johnson. No. 12 SSBNs with life-
of-ship reactor plants (no refueling required) will satisfy the core 
requirement for a credible and effective two-ocean sea-based strategic 
deterrent for the 42-year life of the replacement class (well into the 
latter half of this century). Today 14 SSBNs are required to meet 
strategic deterrent requirements since two to three SSBNs are off-
service for approximately three years during the mid-life refueling 
overhaul period.
    Mr. Forbes. What capabilities will the Navy lose if they decide to 
only acquire less than 12 boats?
    Admiral Breckenridge and Admiral Johnson. The Navy cannot meet 
STRATCOM's two-ocean, sea-based strategic deterrent requirements with 
less than 12 SSBNs in the replacement class.
    12 SSBNs provide the absolute minimum number of platforms to remain 
undetected (survivable) and within the reach of key military targets of 
nuclear powers that could threaten the U.S.
    Mr. Forbes. How does the Ohio replacement support strategic warhead 
requirements associated with the New Start treaty?
    Admiral Breckenridge and Admiral Johnson. Though the New START 
Treaty will have expired when the OHIO Replacement (OR) goes into 
service (treaty expires no later than 2026 and OR enters service in 
2031), the OHIO Replacement program full satisfies STRATCOM 
requirements associated with the Treaty.
    Mr. Forbes. How does the Navy anticipate replacing the strike 
capability lost with the retirement of the SSGN fleet? How does 
Virginia Payload Module support this capability? What options exist in 
lieu of the Virginia Payload Module?
    Admiral Breckenridge and Admiral Johnson. After the SSGNs retire in 
the mid-2020s, the Navy will be unable to meet combatant commander 
requirements for undersea-based, land attack strike with VIRGINIA Class 
submarines as they are designed today. Combatant commander demand for 
submarine presence and missions will continue to rise while the force 
shrinks, requiring the undersea force to employ UUVs and other 
distributed off-board sensors to increase the coverage provided by the 
remaining SSNs.
    All of this equates to payload volume. The Navy investigated 
several options for meeting this payload volume and concluded that the 
modular VIRGINIA design provides the opportunity to cost effectively 
add that payload volume without significantly impacting mission 
performance without redesigning the whole ship. Waiting for the next 
design of SSN or for an ORP-based solution is not timely enough to fill 
the gap in payload left by retirement of the SSGNs while fiscal and 
strategic limitations do not allow for conversion of more SSBNs.
    VPM will both mitigate strike capacity of the decommissioning SSGNs 
and provide flexibility to expand the range of payloads for the 
submarine force in response to evolving mission needs.
    Mr. Forbes. What is the status of the Joint Requirements Oversight 
Council's approval of the Virginia Payload Module?
    Admiral Breckenridge and Admiral Johnson. The Joint Staff completed 
its review of the VIRGINIA Payload Module's (VPM) preliminary 
Capabilities Development Document (CDD) in August 2013 prior to its 
going to the Joint Requirements Oversight Council (JROC) for final 
validation and approval. JROC approval is expected before the end of 
the calendar year.
    Mr. Forbes. How will the Joint Requirements Oversight Council's 
approval materially impact the research and development and the 
associated fielding of the Virginia Payload Module?
    Admiral Breckenridge and Admiral Johnson. The Joint Requirements 
Oversight Council's (JROC) approval of the VIRGINIA Payload Module 
(VPM) Capabilities Development Document (CDD) will support acquisition 
decisions as the program transitions into the engineering development 
phase. Once JROC approval is received, the Navy will begin detailed 
design efforts to fulfill the stated requirements as part of the 
VIRGINIA Class Block V contract scheduled for award in Fiscal Year 
2018.
    In the past, Congress has withheld VPM funding based on the lack of 
a validated requirement. With JROC approval, Congress will be able to 
fully support the Navy's VPM design effort. The JROC approval is 
anticipated early Fiscal Year 2014.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. I am deeply troubled by any potential impacts on the 
two-per-year procurement schedule for Virginia-class boats that we so 
badly need. The economies and efficiencies that the men and women in 
Virginia, Connecticut, and Rhode Island have worked so hard to make 
possible would be seriously impacted by any change to the programmed 
schedule, with potentially serious long-term consequences to this model 
procurement program.
    Can you elaborate on the funding for the second FY14 boat and the 
FY15 boats? What is the current funding plan in our various future 
options--a CR, sequestration or no sequestration, et cetera?
    Admiral Breckenridge and Admiral Johnson. VIRGINIA Class 
Submarine--Funding for the second Fiscal Year (FY) 2014 (14-2, SSN 793) 
and the FY15 (15-1, SSN 794 and 15-2, SSN 795) boats: The President's 
Budget for Fiscal Year 2014 (PB14) contains the required funding for 
the four submarines in both Fiscal Year (FY) 2014 and FY 2015. To 
maintain construction schedule, procurement of Long Lead Time Material 
(LLTM) occurs two years and one year prior to construction start, with 
two year Advance Procurement (AP) used to fund the most critical long 
lead components. In FY 2012, the VIRGINIA Program LLTM contract was 
awarded for the 1st FY 2014 hull (SSN 792). In FY 2013, the LLTM 
contract was modified to complete LLTM funding for the 1st FY 2014 
hull, as well as fund LLTM for the 2nd FY 2014 hull (SSN 793), and for 
two FY 2015 hulls (SSNs 794 and 795).
    VIRGINIA Class Submarine Sequestration budget impacts: The FY 2014 
President's Budget includes ten submarines in Block IV, two per year 
for FY 2014-FY 2018. The Navy is currently negotiating the Block IV as 
a Multiyear Procurement (MYP) Fixed Price Incentive (FPI) contract and 
expects to sign it in early Calendar Year (CY) 2014 contingent on the 
passing of an FY 2014 Department of Defense appropriations bill. The 
full effects of sequestration in FY 2014 are not yet known. However, it 
is expected that the Navy will be able to fund the basic construction 
effort with Ship Construction, Navy funding for the FY 2014 submarines 
(SSN 792 and SSN 793), but will require additional funds to finish 
Government Furnished Equipment (GFE) procurements and testing. 
Additionally, sequestration will result in AP and EOQ reductions, 
thereby reducing the expected MYP savings. To maintain construction 
schedule, procurement of LLTM occurs two years and one year prior to 
construction start, with two year AP used to fund the most critical 
long lead components. FY 2013 sequestration reduced the Program's AP 
funding by $127M which was restored and is in execution. The Navy is 
evaluating the potential for sequestration reductions to the FY 2014 AP 
and EOQ to minimize the overall impact to the program.
    VIRGINIA Class Submarine Continuing Resolution (CR) Impacts: The 
Continuing Appropriations Act, 2014, prevents the Navy from entering 
into MYP contracts. If MYP authority language is provided in a follow 
on CR or appropriations bill, the Navy could execute an MYP contract.
    The Navy must award the Block IV contract by January 31, 2014 in 
order to take advantage of AP/EOQ savings, award the FY 2014 ships, and 
not disrupt construction. By leveraging AP/EOQ, the Navy is able to 
produce VIRGINIA Class submarines in the most cost and schedule 
efficient manner possible.
    The Navy requires MYP contract authority and funding for the 
increased rate of spending as AP/EOQ amounts in FY 2014 are greater 
than FY 2013.
    Mr. Langevin. While the Virginia program has been a model 
procurement story, there are clearly some other procurements in the 
Navy that have had more trouble. If the ORP program remains within the 
Navy shipbuilding budget, or even if it does not, how will the Navy 
seek to insulate the program from cost overruns in other shipbuilding 
lines?
    Admiral Breckenridge and Admiral Johnson. Submarines are meeting 
combatant commander requirements today. The future challenge will be 
ensuring that forward presence around the globe and surge requirements 
can be met with a smaller submarine force.
    VIRGINIA Payload Module (VPM) is needed to both 1) mitigate strike 
capacity of the decommissioning SSGNs and 2) provide flexibility to 
expand the range of payloads for the submarine force in response to 
evolving mission needs. The VPM will be a new hull section containing 
four large-diameter, SSGN-like, aft of the sail that can carry up to 
seven TOMAHAWK cruise missiles each and will be able to readily accept 
new future payloads. These future payloads could include unmanned 
undersea vehicles (UUVs) and advanced weapons, as well as additional 
sensors and stealth enhancements to counter capable adversaries, 
maintaining our dominance in the undersea domain. To reconstitute the 
payload volume lost when the SSGNs retire in the early 2020s in the 
most economical manner, the Navy must design the VPM now for 
incorporation into the Block V VIRGINIA Class contract that is schedule 
for awarding in Fiscal Year 2018.
    Mr. Langevin. Can you give us an update on the Virginia Payload 
Module and how the program is faring given sequestration, a potential 
CR, and other fiscal adversities? How much more bend is there in this 
program before we jeopardize the ability to include this capability in 
the Block 5 Virginias?
    Admiral Breckenridge and Admiral Johnson. Initial concept 
development for VIRGINIA Payload Module (VPM) is largely complete. The 
concept leverages existing technology, previous Navy experience with 
lengthening submarines, and the modular VIRGINIA Class design. Internal 
components required by VPM can be provided by existing systems. For 
example, VPM tubes have the same diameter (87") as the VIRGINIA Payload 
Tubes (VPT) located forward of the sail in Block III and beyond SSNs. 
This modification has minimal cost and technical risk in terms of 
development and procurement if funded to the President's Budget. 
Delaying design and construction will make VPM more expensive and place 
at risk the opportunity to leverage the VIRGINIA Class Block V multi-
year procurement contract.
    The Navy's approved capability requirements document, which defines 
this undersea payload strike requirement for submarine launched 
vertical strike, has been submitted to the Joint Staff for final 
approval. The document is on track for validation by the Joint 
Requirements Oversight Council in the first quarter of Fiscal Year 
2014.
    The Department of Defense and the Navy support VPM as the most 
viable near-term option for this capability. The combination of 
sequestration and the possible CR will delay the VPM design effort, 
thus impacting the introduction of VPM in Fiscal Year 2019 with the 
start of Block V. If VPM development funding is zeroed in Fiscal Year 
2014, as is recommended by the Senate Appropriations Committee, it will 
not be ready for inclusion into the start of Block V VIRGINIA SSNs and 
will not deliver in time to help mitigate the dramatic reduction in 
undersea vertical launchers when the SSGNs begin to decommission in the 
early 2020s. Delaying the VPM effort will result in having insufficient 
strike volume to meet campaign requirements, an inability to enable 
early successful prosecution of adversary A2/AD networks, and will 
close off opportunities to significantly improve VIRGINIA Class 
performance and capabilities against advanced adversaries.
    Mr. Langevin. Stepping back a bit, can you remind me why these 
programs--VCS, VPM, ORP--are so important, given the intense A2/AD 
challenges we are likely to face in future contingencies?
    Admiral Breckenridge and Admiral Johnson. As anti-access/area-
denial technologies have advanced and proliferated, submarines have 
grown in importance. Thanks to their stealth, they can operate where 
other naval forces cannot--inside the adversary's A2/AD perimeter--
performing peacetime missions and, in the event of hostilities, opening 
the door for the joint force with kinetic attacks.
    VIRGINIA Class attack submarines are deployed globally, meeting 
combatant commander requirements. They routinely have the highest 
operational availability in the Submarine Force. The VIRGINIA Class as 
a platform will have to evolve to maintain the Navy's edge and continue 
to carry out changing combatant commander requirements. After the 
guided missile submarines (SSGNs) retire in the mid-2020s, the Navy 
will be unable to meet combatant commander requirements for undersea-
based, land attack strike with VIRGINIA Class submarines as they are 
designed today.
    The VIRGINIA Class' modular design provides the opportunity to cost 
effectively add that payload volume without significantly impacting 
mission performance and without redesigning the whole ship. The 
VIRGINIA Payload Module (VPM), which will consist of four large-
diameter payload tubes located in a new hull section aft of the sail, 
will mitigate loss of strike capacity as a result of the 
decommissioning SSGNs, allow for the employment of future payloads such 
as UUVs and advanced weapons, and serve to maintain our unquestioned 
dominance of the undersea domain by providing flexibility for 
incorporating additional sensors and stealth enhancements to counter 
capable adversaries.
    Finally, our OHIO ballistic missile submarines, which are the 
bedrock underlying our national defense, require recapitalization. For 
over 50 years the SSBN fleet has provided the most survivable leg of 
the nation's strategic nuclear deterrent. The OHIO's stealth, designed 
over 30 years ago, continues to allow it to operate undetected by 
adversaries. Based on the intelligence community's projections, 
advances in stealth are required for the future. The OHIO Replacement 
fleet is being designed to operate against anticipated future threats 
to remain a credible and effective strategic deterrent through the 
2080s.
    Mr. Langevin. Unmanned Undersea Vehicles (UUVs) provide capable, 
relatively low cost alternatives to addressing certain mission sets 
while reducing operational risk, removing the warfighter from harm's 
way, and potentially improving situational awareness. Can you provide 
this subcommittee with an update on UUV development programs, 
particularly the large-diameter UUVs?
    Admiral Breckenridge and Admiral Johnson. UUVs are a critical 
component of the future Navy Force and contribute to dominance in the 
undersea domain. UUV development efforts, mission areas, and vehicle 
systems include:
    Large Displacement UUV (LDUUV) will be a reconfigurable multi-
mission UUV that can be launched from multiple platforms using modular 
payloads and energy sections. The program will leverage the Office of 
Naval Research's Innovative Naval Prototype to develop advanced energy 
sources and autonomy for long duration missions. Acquisition Gate 2 was 
completed in August 2013 and the Capability Development Document (CDD) 
for Increment 1 is currently being drafted. Increment 1 mission 
capabilities will be Intelligence Preparation Of the Environment (IPOE) 
and Intelligence, Surveillance and Reconnaissance (ISR). Fleet 
Demonstration and Testing with prototypes will begin in FY16 with 
program Initial Operational Capability 2022.
    Persistent Littoral Undersea Surveillance (PLUS) System provides 
effective, adaptive and persistent undersea surveillance of multiple 
quiet targets over large littoral areas. It is a multi-node network 
that consists of mobile UUVs with sensors, UUV gliders for 
communications, and a remote control station that can be placed 
anywhere in the world. In-water components can be launched and 
recovered from a variety of vessels. PLUS is a User Operational 
Evaluation System (UOES) that will be operational and deployed in the 
second quarter of Fiscal Year 2015. Development Squadron 5 UUV 
Detachment and LCS Anti-Submarine Warfare (ASW) Mission Package 
Detachment 1 have started operator and maintainer training in 
preparation for the deployment.
    Knifefish Surface Mine Countermeasure (SMCM) UUVs are designed to 
detect, classify, and identify bottom, buried, and volume mines in high 
clutter environments while conducting IPOE. They are deployable from 
LCS or crafts of opportunity. The program has completed Milestone B and 
critical design review. The program has an acquisition objective of 30 
systems and initial operational units will be delivered to the Fleet in 
FY17.
    Mk18 Mod 2 is a lightweight Mine Counter Measure UUV that augments 
search capability for expeditionary response, amphibious operations, 
maritime homeland defense, and hydrographic survey operations. The 
MK18's are being used in theater in an operational environment 
currently run by civilians/contractors. The program has a objective 
inventory of 8 systems (3 vehicles per system) will be reached in 
Fiscal Year 2017. Inventory of 4 systems will be realized by first 
quarter Fiscal Year 2014.
    The Littoral Battlespace Sensing (LBS) Autonomous Undersea Vehicle 
(AUV) provides oceanographic, bathymetric, and hydrographic battlespace 
awareness including high resolution bathymetry and ocean bottom imagery 
in support of ASW and Mine Warfare (MIW). The program is operational 
and objective inventory of 8 will be reached in Fiscal Year 2017.
    LBS Gliders provide Battlespace Awareness by gathering 
oceanographic data in support of ASW and MIW. Buoyancy driven gliders 
can operate for up to 180 days. The program is operational and 
objective inventory of 150 will be reached in Fiscal Year 2015.

                                  <all>

</pre></body></html>
